February 9, 2011

VINCENT H. DEVITO, JR.
VICE PRESIDENT, CONTROLLER

SUBJECT: Audit Report – Compliance With Travel Policies and Opportunities for Cost
         Savings (Report Number FF-AR-11-007)

This report presents the results of our audit of travel costs (Project Number
10BO016FF000). The objectives of our audit were to determine whether employees
adhered to Postal Service travel policies and whether there were opportunities for cost
savings. This audit was self-initiated and addresses financial risk. See Appendix A for
additional information about this audit.

The Postal Service continues to pursue cost-cutting efforts to capture every opportunity
for savings without negatively impacting customers. Reflecting cost-cutting initiatives,
travel costs have declined 17 percent in the last year, from $114.2 million in fiscal year
(FY) 2009 to $94.8 million in FY 2010. However, as disclosed in our report,
opportunities exist for further savings.

Conclusion

Postal Service employees did not comply with prescribed travel policies resulting in over
$600,000 in excessive travel costs for lodging and airfare in FYs 2009 and 2010. We
estimate the Postal Service could realize an additional $600,000 in savings over the
next 2 years, or $300,000 annually, if it takes action to curtail employee noncompliance
with travel policies. Further, the Postal Service did not cancel 2,491 credit cards issued
to former employees, including 53 employees listed as deceased in employee records.
At the time of our audit, there was more than $37 million in open credit associated with
cards of former employees.

Employees Exceeded Government Lodging Rates

Postal Service employees continued to exceed the prevailing government lodging
rates.1 The U.S. Postal Service Office of Inspector General (OIG) also reported this
issue in FY 2009.2 Of the 155,104 lodging transactions we reviewed,3 21,691 exceeded
the government lodging rate. Postal Service policy requires travelers to obtain the



1
  The U.S. General Services Administration (GSA) establishes federal lodging per diem rates.
2
  Electronic Travel Voucher System Controls (Report Number IS-AR-09-001, dated October 8, 2008).
3
  From October 1, 2008 through August 13, 2010.
Compliance With Travel Policies                                                                      FF-AR-11-007
 and Opportunities for Cost Savings


government rate for official lodging.4 While the Postal Service is in the process of
clarifying this requirement in their policy, our audit found that employees were frequently
unaware of the established government rate when they obtained lodging and did not
verify whether the rate they secured exceeded the government rate. In addition, the
current Electronic Travel Voucher System (eTravel) does not flag lodging that exceeds
the prevailing government rate and does not require employees to separate lodging
amounts from taxes, resulting in lodging rates that are not transparent to reviewing
officials.5 Overall, we noted that from October 2008 through September 2010,6 the
Postal Service could have saved more than $600,000 if employees adhered to
prescribed government lodging rates and could save an additional $600,000 over the
next 2 years if action is taken. See Appendix B for our detailed analysis of this topic.
See Appendix C for details of the monetary impact.

We recommend the vice president, controller:

1. Develop required periodic training for travelers and approving officials that
   addresses adherence to prescribed government rates and the issues noted later this
   report, including proper use of and cancelling, when appropriate, the government
   travel card.

2. Incorporate requirements to flag lodging that exceeds prevailing government rates
   and require itemization of lodging and tax on lodging before approval of travel in the
   new electronic travel system.

3. Require advance approval for lodging rates that exceed prescribed government
   rates and document that approval in the new electronic travel voucher system.
         
4. Develop procedures to document approval for exceeding lodging until such time as
   the new electronic travel system is implemented.
         
Management’s Comments

Management agreed with our finding and monetary impact but did not agree with
recommendation 1 to provide periodic training to travelers and approving officials due to
cost constraints. Management also disagreed with recommendation 4, stating they
expect the new travel system to begin by calendar year 2013; therefore, it is not
cost-efficient to spend money on the current system to document lodging costs
exceeding government rates. However, for both recommendations, they proposed an
alternate action to re-emphasize the importance of adhering to Postal Service travel
policy in periodic communications. Management stated they would also remind travelers
of the availability of the Postal Service’s Travel Help web page. Management plans to
begin periodic communication of the policy in Quarter 3, FY 2011.

4
  Handbook F-15, Travel and Relocation, Section 4-1.1.2, dated February 2004 (updated with Postal Bulletin
revisions through January 28, 2010).
5
  The Postal Service shall replace eTravel with new a new system by the end of FY 2013.
6
  We reviewed data for the period October 1, 2008, through August 13, 2010. We used an average daily rate for that
period to project through September 2010.

                                                         2
Compliance With Travel Policies                                                                         FF-AR-11-007
 and Opportunities for Cost Savings



Management agreed with recommendations 2 and 3 and stated that they have
incorporated language into the requirements document for the new electronic travel
system for booking pre-approval for airfare, hotel, and car rental to show the
government rates. In addition, the new system will flag costs outside of city pair (airline)
fares and GSA lodging rates. These measures were placed in the requirements
document for the new electronic travel system in September 2010. See Appendix D for
management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to our recommendations and
management’s planned actions should correct the issues identified in the report.

Employees Misused Travel Credit Cards

We reviewed travel card usage for 2747 employees with high-risk transactions and
found that 173 misused their government travel card by purchasing personal items and
taking cash advances unrelated to official travel. While travel coordinators reviewed
cardholder statements when delinquencies were identified, they did not routinely review
for misuse if there was no associated delinquency. As a result, we identified more than
$349,317 in inappropriate purchases and cash advances from October 2008 through
September 2010. We referred this employee misconduct to the OIG Office of
Investigations, and Postal Service and cognizant officials have taken a variety of
personnel actions including employee removal.

When employees misuse their government travel cards, there is an increased risk of
delinquency and write-offs, which could negatively impact the Postal Service’s
contractual relationship with Citibank® (goodwill). Further, the amount of money rebated
to the Postal Service is reduced when Citibank forgives delinquent accounts.

Based on our audit work, Postal Service officials are mitigating risk by lowering
employee credit limits from the current level of $15,000.8 In addition, the Postal Service
will require employees with government travel cards to sign cardholder agreements to
verify employees are aware travel cards are for official travel only. Lastly, the Postal
Service is working with VISA® to have suspicious transactions flagged in a new VISA®
IntelliLink9 system. The Postal Service will train travel coordinators on this system by
September 30, 2011. See Appendix B for our detailed analysis of this topic. See
Appendix C for other impact.



7
  We judgmentally selected 274 employee cardholders from a Visa® Intellilink report that showed 508 employees with
high-risk transactions. This report defined high-risk transactions as cash advances obtained without airfare or lodging
during the same period.
8
  At the time of our report, the Postal Service had not yet determined the credit limit level.
9
  Visa IntelliLink Compliance Management is a web-based information-services application that allows easy,
convenient access to information that can improve misuse detection and management.


                                                          3
Compliance With Travel Policies                                                                 FF-AR-11-007
 and Opportunities for Cost Savings


We recommend the vice president, controller:

5. Develop procedures for travel coordinators to monitor VISA® Intellilink for misuse
   and notify approving officials as appropriate.

Management’s Comments

Management agreed with our finding and recommendation and stated that all travel
card coordinators will first receive training on the VISA® Intellilink system. Management
will then develop the procedures to monitor misuse using VISA® Intellilink and create
program rules in the Intellilink system to detect various types of misuse. These actions
will be completed by September 30, 2011.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to our recommendation and
management’s planned actions should correct the issues identified in the report.

Travel Cards Were Not Cancelled for Separated Employees

The Postal Service did not cancel 2,491 credit cards issued to former employees,
including 53 employees listed as deceased in employee records. We identified two
former employees who were using their travel cards after they separated from the
Postal Service. Postal Service policy requires an employee’s supervisor to collect an
employee’s travel card upon termination.10 However, no processes exist to verify that
credit card accounts for separated employees have been cancelled. At the time of our
audit, there was more than $37 million in open credit associated with these cards. When
we brought this issue to management’s attention, they took immediate action to begin
closing the accounts of the separated employees we identified. See Appendix B for our
detailed analysis of this topic.

We recommend the vice president, controller:

6. Develop procedures to verify travel cards are cancelled for separated employees

Management’s Comments

Management agreed with our finding and recommendation stating they will develop
procedures to verify that travel cards are cancelled for separated employees.
Management also stated they will periodically communicate to travel card coordinators
the importance of periodic reviews of open travel card accounts and communicate to
employees their responsibility as cardholders. They will complete these actions no later
than Quarter 3, FY 2011.


10
  Postal Service (PS) Form 292, Headquarter Clearance Checklist and PS Form 337, Clearance Record for
Separated Employee.


                                                      4
Compliance With Travel Policies                                                                         FF-AR-11-007
 and Opportunities for Cost Savings


Management disagreed that the $37 million of assets were at risk,11 stating the master
contract with the SmartPay Card Program clearly states the employee is fully
responsible for repayment of the monies owed to the bank.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to our recommendation and
management’s planned actions should correct the issue identified in the report. The OIG
considered reporting the $37 million as assets at risk,but we agree the cardholders are
responsible for any amounts that are uncollectable. Therefore, any impact on the Postal
Service would most likely be nominal. As a result, we removed references to the $37
million of open credit as being at risk.

Miscellaneous Travel Policy Noncompliance

Employees violated various other travel policies including paying for other employees’
lodging, using their personal credit card for travel rather than their government travel
card, submitting duplicate claims for travel reimbursement, and other noncompliance
described in Appendix B. The eTravel system does not flag or otherwise identify the
noncompliances we identified. As a result, the Postal Service has an increased risk of
unnecessary travel expenses.

We recommend the vice president, controller:

7. Include requirements in the new electronic travel voucher system to identify and flag
   the instances of noncompliance identified in our report.

Management’s Comments

Management agreed with our finding and recommendation and stated they are revising
the current electronic travel voucher system so that an employee will not be able to use
duplicate hotel dates in vouchers. Further, requirements for the new electronic travel
system will include provisions so that approvers will be able to view previous vouchers
to eliminate duplicate claims and employees will no longer have the ability to combine
hotel taxes with hotel rates. Other issues will be addressed in periodic communications
with travelers and approving officials. Management plans to begin periodic
communication of travel policy in Quarter 3, FY 2011.

Travelers Submitted International Airfare Costs Before Travel

We noted in isolated instances that employees submitted travel vouchers for
international airfare that was booked for future dates. Postal Service policy explicitiy


11
   In the draft report sent to management for official comments, the OIG considered the $37 million of open credit for
the non-cancelled credit cards to be assets at risk: items (for example, cash, stamps, and money orders) that are at
risk of loss because of inadequate internal controls.


                                                           5
Compliance With Travel Policies                                                    FF-AR-11-007
 and Opportunities for Cost Savings


prohibits payment in advance of travel.12 Postal Service officials advised that the
employees would not have had sufficient credit on their travel cards if the airfare was
not paid in advance, and such flights were routinely booked far in advance, thus
requiring prompt payment before travel. As a result, the Postal Service is at increased
risk for overpayment, as it did with one employee who received a reimbursement of
$10,114 in October 2009 for a flight that was never taken. The employee currently has a
credit on his government travel card account and has yet to repay the Postal Service.
The Postal Service increases its risk of not collecting the overpayment the longer it
resides in the employee’s account. See Appendix C for the monetary impact.

We recommend the vice president, controller:

8. Revise current policies to allow for submission of international airfare before travel
   when such costs reach the individual’s travel card credit limit.

9. Initiate action to collect the $10,114 duplicate airline payment.

Management’s Comments

Management agreed with our finding and recommendations but clarified the individual
did not actually receive reimbursement of the $10,114 but was instead a credit on his
travel card. Management noted the employee recently purchased airfare for an
upcoming international flight. His voucher for the new trip will list the travel card credit of
$10,114 as a personal expense to remove the credit balance from the employee’s travel
card. The corrective action will be taken no later than March 31, 2011.

Management also incorporated new wording in the revised Handbook F-15 to include
when an exception to the travel policy is allowed. They expect to issue the revised
Handbook F-15 no later than September 30, 2011.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to our recommendations and
management’s planned actions should correct the issues identified in the report.




12
     Handbook F-15, Section 2-1.6.


                                               6
Compliance With Travel Policies                                                FF-AR-11-007
 and Opportunities for Cost Savings


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact William Rickett, acting director,
Field Financial-Central, or me at 703-248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc:     Joseph Corbett
        Susan M. Brownell
        Stephen J. Nickerson
        Susan LaChance
        Corporate Audit and Response Management
 




                                            7
Compliance With Travel Policies                                                 FF-AR-11-007
 and Opportunities for Cost Savings


                         APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Title 39, Section 410 of the U.S. Code gives the Postal Service the authority to establish
its own travel policy. The Postal Service sets forth its travel policies for employees that
travel for official business and their approving officials in Handbook F-15. Employees
must comply with the policies stated in Handbook F-15 and plan their itinerary to
accomplish their purpose with a minimum investment of time and expense.

Employees and approving officials use eTravel, a Web-based system, to electronically
manage their business travel expenses; create, review, and submit expense reports;
and access policy compliance information. Employees are required to submit their
eTravel expense report as soon as possible after travel is completed but no later than
the end of the accounting month in which travel was completed.

The Government Travel Card System is a program offered by the Postal Service in
which an individual government travel card with automatic teller machine privileges is
issued to designated employees for use while on official travel. If an employee is issued
a travel card, the card is in the employee’s name and charges are billed directly to the
employee for payment. Handbook F-15 clearly states that employees may not use their
official government travel card for personal business.

To assist with the administration of the travel program, each Postal Service district has
an eTravel coordinator who can answer questions and enroll travelers in eTravel. The
eTravel coordinator provides key setup and administrative support for Postal Service
travelers who use the eTravel system.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to determine whether employees adhered to Postal Service travel
policies and whether opportunities existed for cost savings. To accomplish our
objectives, we:

       Obtained lodging transactions with associated hotel tax from eTravel for the
        period October 1, 2008, through August 13, 2010. We did not obtain transactions
        where the associated hotel tax was not separately identified because we could
        not be assured the individual lodging charges included only the cost of the stay,
        exclusive of the hotel tax.

       Compared lodging transactions to prevailing government lodging rates published
        by the GSA.

       Contacted 60 employees whose lodging costs exceeded the government lodging
        rates, to determine if they were aware of government lodging rates and the
        reasons those rates were exceeded.



                                             8
     Compliance With Travel Policies                                                         FF-AR-11-007
      and Opportunities for Cost Savings



             Reviewed a random sample of 90 lodging transactions to evaluate the validity of
              travel data obtained from eTravel.

             Obtained and reviewed the premium airfare report from GSA for the period
              October 1, 2008, through June 30, 2010, to identify premium travel that violated
              Postal Service policy.

             Compared employee eTravel reimbursement reports to the Citibank® travel card
              data to verify accuracy of official purchases for the period October 1, 2008,
              through September 30, 2010. We judgmentally reviewed a sample of 274 of 508
              Citibank® travel cardholders’ transactions flagged on the Visa® Intellilink report
              that showed employees with high-risk transactions. This report defined high-risk
              transactions as cash advances obtained without associated travel.

             Compared employees on board as of November 10, 2010, to current travel credit
              cardholders.

     We conducted this performance audit from March 2010 through February 2011 in
     accordance with generally accepted government auditing standards and included such
     tests of internal controls as we considered necessary under the circumstances. Those
     standards require that we plan and perform the audit to obtain sufficient, appropriate
     evidence to provide a reasonable basis for our findings and conclusions based on our
     audit objectives. We believe that the evidence obtained provides a reasonable basis for
     our findings and conclusions based on our audit objectives. We discussed our
     observations and conclusions with management on December 13, 2010, and included
     their comments where appropriate.

     We assessed the reliability of eTravel data by testing a sample of transactions to
     supporting documentation. We determined the data were sufficiently reliable for the
     purposes of this report.

     PRIOR AUDIT COVERAGE
                           Report          Final Report
   Report Title                                                          Report Results
                           Number              Date
Postal Service           FT-AR-10-007        2/2/2010       Officers’ travel and representation expenses
Officers' Travel and                                        were supported and complied with policies.
Representation                                              We made no recommendations in this report.
Expenses for Fiscal
Year 2009.
Office of the Board of   FT-AR-10-002       11/5/2009       Officers’ travel and miscellaneous expenses
Governors' Travel                                           were supported and complied with policies.
and Miscellaneous                                           We made no recommendations in this report.
Expenses for Fiscal
Year 2009




                                                        9
      Compliance With Travel Policies                                                              FF-AR-11-007
       and Opportunities for Cost Savings


                           Report           Final Report
    Report Title                                                             Report Results
                           Number               Date
Electronic Travel        IS-AR-09-001        10/8/2008          Overall, the manual and automated controls
Voucher System                                                  associated with eTravel adequately support
Controls                                                        approval of travel expenses other than
                                                                lodging. However, management could
                                                                improve the controls and clarify the policy
                                                                associated with the approval of lodging
                                                                expenses. Management did not agree with
                                                                the report recommendations at the time of
                                                                report issuance, because the Postal Service
                                                                planned to replace the current travel voucher
                                                                system.
Security Vulnerability   IS-AR-08-012        6/25/2008         The scans performed during this security
Assessment of the                                              vulnerability assessment identified security
Electronic Travel                                              vulnerabilities and inconsistencies with Postal
Voucher System                                                 Service security requirements on the eTravel
                                                               production servers and database server
                                                               tested. Management agreed with the
                                                               recommendations and implemented
                                                               corrective actions.
Postal Service Board     FT-AR-08-008        2/15/2008          Travel and miscellaneous expenses were
of Governors’ Travel                                            properly supported and complied with Board
and Miscellaneous                                               of Governors policies. However,
Expenses for Fiscal                                             management did not always comply with
Year 2007                                                       Postal Service policies and procedures
                                                                pertaining to the approval and verification of
                                                                Governors‘ travel vouchers. The Board
                                                                agreed with the recommendations.
Postal Service           FT-AR-08-004        12/20/2007         Officers‘ travel and representation expenses
Officers’ Travel and                                            were properly supported and complied with
Representation                                                  Postal Service policies and procedures.We
Expenses for Fiscal                                             made no recommendations in this report.
Year 2007




                                                          10
Compliance With Travel Policies                                                                       FF-AR-11-007
 and Opportunities for Cost Savings


                                  APPENDIX B: DETAILED ANALYSIS

Employees Exceeded Government Lodging Rates

Postal Service employees continued to pay for lodging that exceeded the prevailing
government lodging rates, as previously reported by the OIG in FY 2009.13 Postal
Service policy requires travelers to obtain the government rate for official lodging.14 Of
the 155,104 lodging transactions made from October 1, 2008, through August 13, 2010,
we reviewed, 21,691 exceeded the government lodging rate. While the Postal Service
will clarify this requirement in a revised Handbook F-15, our audit found employees
were frequently unaware of what the established government rate was when they
obtained lodging and did not verify whether the rate they secured exceeded the
government rate. Some of the occurrences we noted included:

          One employee claimed 326 lodging nights for reimbursement over a 20-month
           period that, in total, exceeded the prescribed government lodging rates by
           $17,877.

          Postal Service employees claimed lodging charges for reimbursement for the
           2009 and 2010 National Postal Forums that exceeded the prescribed
           government lodging rates by $88,983.
            
          Two employees on an extended detail assignment for the majority of FY 2009
           charged a total of $11,000 over the prescribed government lodging rates.

Overall, we noted that from October 2008 through September 2010, the Postal Service
could have saved more than $600,000 if employees adhered to prescribed government
lodging rates. In addition, it could save an additional $600,000 over the next 2 years if
employees are required to follow prescribed government lodging rates.

We noted during our audit that eTravel could be modified to further identify and possibly
prevent excessive lodging rates. These modifications could include incorporating flags
to identify lodging that exceeds the prevailing government rate and by requiring
travelers to separate nightly lodging expenses from associated tax charges. However,
as the Postal Service is in the process of replacing eTravel, management believes, and
we concur, that it is not prudent to invest in enhancements to the current system at this
time. Additionally, the Postal Service advised us that the new electronic travel voucher
system, which will be completed by the end of FY 2013, will include features to identify
excessive lodging before travel and after approval.




13
     Electronic Travel Voucher System Controls (Report Number IS-AR-09-001, dated October 8, 2008).
14
     Handbook F-15, Section 4-1.1.2.


                                                         11
Compliance With Travel Policies                                                                        FF-AR-11-007
 and Opportunities for Cost Savings


Employees Misused Travel Credit Cards

We reviewed travel card usage for 27415 employees with high-risk transactions and
found that 173 misused their government travel cards by purchasing items for personal
use and taking cash advances unrelated to official travel, including the following:

        Three employees purchased airfare tickets, including tickets to Spain and Italy,
         for family and friends.

        One employee purchased an Apple computer and paid his mortgage.

        One employee used his government issued travel card more than 50 times at
         adult entertainment establishments.

The Postal Service’s travel coordinators routinely review travel card delinquencies but,
until recently, did not have a convenient electronic tool that automatically identified
potential misuse if there was no associated delinquency. In December 2010, the Postal
Service began using the VISA® Intellilink system,16 which generates reports to flag a
variety of high-risk transactions, including cash advances and prohibited purchases.
The Postal Service is training its travel coordinators to use this product to identify
misuse. We believe use of this tool will significantly aid in identifying purchasing
impropriety.

Overall, we identified more than $349,317 in inappropriate purchases and cash
advances made from October 2008 through September 2010. When employees misuse
their travel cards, there is an increased risk of delinquency and account write-offs, which
could negatively impact the Postal Service’s contractual relationship with Citibank.
Based on our audit work, Postal Service officials are taking measures to mitigate risk by
lowering employee credit limits from the current level of $15,000. In addition, the Postal
Service will require employees with government travel cards to sign cardholder
agreements to verify they are aware government travel cards are for official travel only.
Lastly, the Postal Service will train all travel coordinators on the VISA® IntelliLink system
by September 30, 2011.

Travel Cards Were Not Cancelled for Separated Employees

The Postal Service did not cancel 2,491 credit cards currently held by former
employees, including 53 employees listed as deceased. Two former employees we
reviewed were using their travel cards after they separated from the Postal Service.
Postal Service policy requires an employee’s supervisor to collect an employee’s travel
card upon termination.17 Currently, there is no process to verify credit card accounts of

15
   We judgmentally selected 274 employee cardholders from a Visa® Intellilink report that showed 508 employees
with high- risk transactions. This report defined high-risk transactions as cash advances obtained without airfare or
lodging during the same period.
16
   Visa® IntelliLink Compliance Management is a web-based information-services application that allows easy,
convenient access to information that can improve misuse detection and management.
17
   PS Form 292, “Headquarter Clearance Checklist” and PS Form 337, “Clearance Record for Separated Employee.”


                                                         12
Compliance With Travel Policies                                                                   FF-AR-11-007
 and Opportunities for Cost Savings


terminated employees have been cancelled. At the time of our audit, there was more
than $37 million in open credit associated with these cards. When we brought this issue
to management’s attention, they took immediate action to close the accounts of the
separated employees we identified.

Miscellaneous Travel Policy Noncompliance

During our review, we found that employees violated various travel policies, as identified
inTable 1.

                 Table 1: Policy Violations With Associated Postal Policy
                       Issue                                           Postal Service Policy
Employees paid for other employees’ lodging with          Management Instruction FM-640-2004-1,
their government travel cards.                            Government-Issued, Individually Billed Travel
                                                          Charge Cards, Page 2, section a, Dated June 1,
                                                          2004.
Employees used their personal credit cards for            There is no written policy; however, according to
travel rather than their government travel cards.         Postal Service officials, when employees are first
                                                          given their government travel cards, they are
                                                          instructed to use their government travel card for all
                                                          government travel.
Employees submitted duplicate claims for travel           There is no written eTravel policy on duplicate
reimbursement.                                            reimbursements; however, Postal Service officials
                                                          stated employees are not allowed to submit
                                                          multiple reimbursements for the same purchase.
Employees incorrectly coded hotel taxes as hotel          Handbook F-15, Section 6-3.1.
charges.
Employees entered the wrong start and end dates           eTravel Quickstart - Creating and Submitting
for trips.                                                Expenses, Step 6, Dated October 2009.
Employees combined multiple hotel nights into the         eTravel Itemizing Expenses Quickstart, Using the
same night when entering them into eTravel.               Hotel Expert, page 2 Dated October 2009.
Employee incorrectly coded a lease as hotel when          Handbook F-15, Section 6-3.2.
entering it into eTravel.
Employees purchased fuel for their privately owned        Handbook F-15, Section 7-1.1.
vehicles and meals while conducting local travel.
Employees claimed lodging expenses when their             Handbook F-15, Section 2-3.
travel did not exceed 50 miles from their official
duty station.




                                                     13
Compliance With Travel Policies                                                                        FF-AR-11-007
 and Opportunities for Cost Savings


                          APPENDIX C: MONETARY AND OTHER IMPACTS

                                               Monetary Impact

               Finding                               Impact Category                           Amount
      Employees Exceeded
                                          Unrecoverable Questioned
      Government Lodging                                                                           $600,000
                                          Costs18
      Rates
      Employees Exceeded
      Government Lodging                  Funds Put To Better Use19                                  600,000
      Rates
      Travelers Submitted
      International Airfare               Recoverable Questioned Costs20                              10,114
      Costs Before Travel
                      \

                                          Total                                                 $1,210,114

                                                  Other Impact

              Finding                                Impact Category                           Amount
      Employees Misused
                                          Goodwill Branding21
      Travel Cards




18
   Unrecoverable costs that are unnecessary, unreasonable, or an alleged violation of law or regulation.
19
   Funds that could be used more efficiently by implementing recommended actions.
20
   Recoverable costs that are unnecessary, unreasonable, or an alleged violation of laws or regulations.
21
   An actual or potential event or problem that could harm the reputation of the Postal Service.


                                                         14
Compliance With Travel Policies                             FF-AR-11-007
 and Opportunities for Cost Savings


                        APPENDIX D: MANAGEMENT’S COMMENTS




                                       15
Compliance With Travel Policies            FF-AR-11-007
 and Opportunities for Cost Savings




                                      16
Compliance With Travel Policies            FF-AR-11-007
 and Opportunities for Cost Savings




                                      17
Compliance With Travel Policies            FF-AR-11-007
 and Opportunities for Cost Savings




                                      18
Compliance With Travel Policies            FF-AR-11-007
 and Opportunities for Cost Savings




                                      19
Compliance With Travel Policies            FF-AR-11-007
 and Opportunities for Cost Savings




                                      20
Compliance With Travel Policies            FF-AR-11-007
 and Opportunities for Cost Savings




                                      21
Compliance With Travel Policies            FF-AR-11-007
 and Opportunities for Cost Savings




                                      22
